App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JAMES SOLER,
Plaintiff-Appellant,

No. 17-56270
D.C. No.
3:14-cv-02470-MMA-RBB

v.

MEMORANDUM*
COUNTY OF SAN DIEGO;
(Filed Feb. 26, 2019)
et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Southern District of California
Michael M. Anello, District Judge, Presiding
Argued and Submitted February 7, 2019
Pasadena, California
Before: GOULD, NGUYEN, and OWENS, Circuit Judges.
James Soler appeals from the district court’s judgment in his 42 U.S.C. § 1983 action arising from his
arrest and detention for a thirty-year-old crime he
did not commit. Soler’s neighbor falsely reported to
Arkansas authorities that Soler, a resident of California, was an Arkansas prison escapee, Steven Dishman.
The state of Arkansas issued an extradition request
to the state of California, and California officials arrested and detained Soler for over eight days before
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

App. 2
concluding that he was not Dishman and releasing
him. The district court dismissed Soler’s claims against
employees of the Arkansas Department of Corrections
(“ADC”) for lack of personal jurisdiction, and granted
summary judgment in favor of several individual San
Diego officers and the County of San Diego.
We review de novo the district court’s dismissal for
lack of personal jurisdiction and grant of summary
judgment. See Axiom Foods, Inc. v. Acerchem Int’l, Inc.,
874 F.3d 1064, 1067 (9th Cir. 2017); Bravo v. City of
Santa Maria, 665 F.3d 1076, 1083 (9th Cir. 2011). We
have jurisdiction under 28 U.S.C. § 1291, and we affirm
in part, reverse in part, vacate in part, and remand.
I.

Personal Jurisdiction

Soler argues that the district court erred in determining that it lacked personal jurisdiction over Lisa
Wilkins, an attorney at ADC, and Ray Hobbs, Director
of ADC. On a Federal Rule of Civil Procedure 12(b)(2)
motion to dismiss for lack of personal jurisdiction, the
plaintiff “need only make a prima facie showing” of jurisdiction. See Schwarzenegger v. Fred Martin Motor
Co., 374 F.3d 797, 800 (9th Cir. 2004). “[U]ncontroverted allegations in the complaint must be taken as
true,” and “[c]onflicts between parties over statements
contained in affidavits must be resolved in the plaintiff ’s favor.” Dole Food Co. v. Watts, 303 F.3d 1104, 1108
(9th Cir. 2002). California courts may exercise specific
jurisdiction if “(1) defendants purposefully availed
themselves of the privilege of conducting activities in

App. 3
California . . . ; (2) [plaintiff ’s] claims arise out of defendants’ California-related activities; and (3) the exercise of jurisdiction would be reasonable.” Ziegler v.
Indian River County, 64 F.3d 470, 473 (9th Cir. 1995).
Here, Soler has made a prima facie showing that
all three requirements for specific jurisdiction are satisfied for Wilkins and Hobbs. The first requirement,
“purposeful availment,” is satisfied because Wilkins
and Hobbs engaged in intentional acts “expressly
aimed” at California, causing harm in California. Dole
Food Co, 303 F.3d at 1111. Specifically, Wilkins coordinated the efforts to have the Arkansas Governor issue
a warrant of requisition to California for Soler’s arrest
and detention in California. Wilkins then communicated with California officials on several occasions over
the phone and email, including persuading the arresting officer to hold Soler even when the officer doubted
that Soler was Dishman. Similarly, Hobbs was Wilkins’
supervisor, and he signed all critical documents requesting that the Arkansas Governor issue the warrant of requisition to California. Notably, Hobbs’ affidavit provided
the only factual basis for an Arkansas judge’s probable
cause finding that Dishman was living under Soler’s
name at Soler’s California address.
Thus, although Wilkins and Hobbs did not physically travel to California, they were “directly and significantly involved” in the extradition efforts. Lee v.
City of Los Angeles, 250 F.3d 668, 694 (9th Cir. 2001)
(holding that defendants who did not travel to California, but “were otherwise directly and significantly
involved” in the extradition, may satisfy the purposeful

App. 4
availment requirement); see also Burger King Corp. v.
Rudzewicz, 471 U.S. 462, 476 (1985) (“Jurisdiction . . .
may not be avoided merely because the defendant did
not physically enter the forum State.” (emphasis in
original)).
Moreover, the exercise of personal jurisdiction
here is consistent with Walden v. Fiore, in which the
Supreme Court explained that jurisdiction “must arise
out of contacts that the ‘defendant himself ’ creates
with the forum State.” 571 U.S. 277, 284 (2014) (emphasis in original) (quoting Burger King Corp., 471 U.S.
at 475). Wilkins and Hobbs specifically requested that
California officials arrest and detain Soler. Thus, it is
Wilkins’ and Hobbs’ own conduct that connects them
to California, and they are not being haled into a California court “solely as a result of random, fortuitous, or
attenuated contacts.” Burger King Corp., 471 U.S. at
475 (internal quotation marks omitted).
The remaining requirements for specific jurisdiction are easily satisfied. The parties do not dispute that
Soler’s “claims arise out of defendants’ California-related activities,” Ziegler, 64 F.3d at 473, and Wilkins
and Hobbs have failed to present a “compelling case”
to overcome the presumption of reasonableness, id. at
476 (emphasis in original).
Accordingly, we reverse the district court’s dismissal of Soler’s claims against Wilkins and Hobbs for lack
of personal jurisdiction, and remand.

App. 5
II.

Summary Judgment

Soler also appeals from the district court’s decision
to grant summary judgment to several San Diego officers and the County of San Diego on his § 1983 wrongful detention claim.1
Soler argues that his detention based on mistaken identity violated both the Fourth and Fourteenth
Amendments. However, “post-arrest incarceration is
analyzed under the Fourteenth Amendment alone.”
Rivera v. County of Los Angeles, 745 F.3d 384, 389-90
(9th Cir. 2014). Our precedent makes clear that detention based on mistaken identity violates due process if
“the circumstances indicated to the defendants that
further investigation was warranted.” Id. at 391; see
also id. at 392 (explaining that, in contrast, “[u]nsupported claims of mistaken identity, by themselves, do
not trigger a duty to investigate further”). These “further investigation” cases generally “involve[ ] significant differences between the arrestee and the true
suspect.” Id. at 391; see also, e.g., Garcia v. County of
Riverside, 817 F.3d 635, 641 (9th Cir. 2016) (explaining
that further investigation was warranted because
the arrestee was “nine inches taller and forty pounds
heavier than the warrant subject”). Moreover, once
further investigation is warranted, the investigation
should involve “readily available and resource-efficient
1

Soler does not challenge the district court’s grant of summary judgment to the defendants on his § 1983 wrongful arrest
claim. Soler also does not challenge the district court’s grant of
summary judgment on his wrongful detention claim to two San
Diego officers, Javier Medina and Mark Milton.

App. 6
identity checks, such as a fingerprint comparison, to
ensure that they are not detaining the wrong person.”
Garcia, 817 F.3d at 642.
However, an individual officer may only be liable
if there is a “causal connection” between the officer’s
acts and the constitutional violation. See Preschooler II
v. Clark Cty. Sch. Bd. of Trs., 479 F.3d 1175, 1183 (9th
Cir. 2007). Thus, we analyze each San Diego officer in
turn.
Starting with Detective Ernesto Banuelos, a reasonable juror could conclude that he had the necessary
causal connection to a violation of Soler’s due process
rights. Banuelos was assigned to look into Soler’s claim
of mistaken identity, and—viewing the evidence in the
light most favorable to Soler—Banuelos had the duty
to initiate further investigation. This is because there
were significant differences between Soler’s and Dishman’s physical appearances. Soler has brown eyes,
while Dishman has blue eyes. Soler does not have any
visible scars, while Dishman has a scar on his forehead
between his eyes, and a scar on his wrist. Thus, Soler’s
repeated protests of mistaken identity were supported,
and Banuelos should have investigated further.
A reasonable juror could also conclude that Banuelos failed to initiate such an investigation. For
example, Soler asserts that—when Banuelos visited
Soler in jail—Banuelos would not listen to him and repeatedly called him a liar. Banuelos stated in his deposition that he observed that Soler had brown eyes and
no visible scars, and that he was aware that Dishman

App. 7
had blue eyes and scars, but Banuelos did not tell anyone of this discrepancy. In fact, a San Diego officer
wrote in a report the same day that Banuelos visited
Soler that a detective from Banuelos’s unit confirmed
that Soler was positively identified as Dishman—a
reasonable juror could conclude that this detective was
Banuelos. Banuelos even admitted to handwriting over
a piece of Soler’s paperwork that Soler had blue eyes.
Moreover, Banuelos never conducted a fingerprint
comparison, despite filling out paperwork stating that
a print match was confirmed.
Although Banuelos wrote in his final report that
he recommended further investigation into Soler’s
mistaken identity claim, he completed this report six
days after Soler’s release, and the report is inconsistent with the evidence discussed above. Also, the
fact that Soler received a hearing the day after Banuelos’s visit does not, by itself, break the causal connection between Banuelos’s conduct and Soler’s wrongful
detention. See Lee, 250 F.3d at 685. In sum, given the
conflicting evidence about whether Banuelos initiated
any further investigation, a reasonable juror could conclude that he violated Soler’s rights.2
In addition, Banuelos is not entitled to qualified
immunity because the right at issue was “clearly established.” Pearson v. Callahan, 555 U.S. 223, 236
2

Adding to Soler’s injury, after San Diego officials finally
conducted a fingerprint comparison, and the results revealed that
Soler’s and Dishman’s prints did not match, there was a five-day
delay before officials conducted a second, verification fingerprint
comparison and released Soler.

App. 8
(2009). In Garcia v. County of Riverside, we concluded
that an officer was not entitled to qualified immunity
because, for these “further investigation” cases, “the
standards for determining whether alleged police conduct violates the Fourteenth Amendment were clearly
established.” Id. at 643 (referencing Lee, 250 F.3d 668;
Fairley v. Luman, 281 F.3d 913 (9th Cir. 2002); Rivera,
745 F.3d 384; Gant v. County of Los Angeles, 772 F.3d
608 (2014)). Specifically, we explained that our decision
in Rivera v. County of Los Angeles “summarize[d] existing law” when it declared that “officers violate the
Fourteenth Amendment if they wrongly detain a person where ‘the circumstances indicated to [them] that
further investigation was warranted.’ ” Id. at 643
(quoting Rivera, 745 F.3d at 391). Rivera and our other
cases have simply applied this statement “to different
allegations by different plaintiffs” and “do not make
new law.” Id. at 644. Thus, similar to the officer in Garcia, Banuelos is not entitled to qualified immunity.
As for the other individual officers, Detective Ken
Smith, the San Diego Sheriff ’s Fugitive Task Force
member assigned to Soler’s case, does not have the
“requisite causal connection” to Soler’s wrongful detention. Preschooler II, 479 F.3d at 1183. Soler’s injury is
also not attributable to Deputy Robert Germain, the
arresting officer, or Sergeant Rick Turvey, Germain’s
supervisor. Although officers in the field may be liable
for failing to investigate potential identity issues under some circumstances, such circumstances are not
present here.

App. 9
Accordingly, we reverse the district court’s grant of
summary judgment to Detective Banuelos, and affirm
the judgment as to the other San Diego officers.
Finally, after the district court erroneously determined that there was no underlying constitutional violation, it denied Soler’s request for leave to amend to
allege different policies as the bases for municipal liability, and granted summary judgment to the County.
Because we determine above that a reasonable juror
could conclude that there was a constitutional violation, we vacate the district court’s grant of summary
judgement to the County. On remand, the district court
should reconsider Soler’s request for leave to amend
his complaint.3
Each party shall bear its own costs on appeal.
AFFIRMED IN PART, REVERSED IN PART,
VACATED IN PART, AND REMANDED.

3

Because the district court dismissed Soler’s federal claims,
it declined to exercise supplemental jurisdiction over Soler’s state
law claims. On remand, the district court should reconsider whether
to exercise supplemental jurisdiction over the state law claims.

App. 10
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
JAMES SOLER,

Case No.:
14cv2470-MMA (RBB)

Plaintiff,

ORDER GRANTING
DEFENDANTS’
COUNTY OF SAN DIEGO; MOTION FOR
SUMMARY JUDGMENT
et al.,
v.

Defendants.

(Filed Aug. 11, 2017)
[Doc. No. 143]

Plaintiff James Soler brings this civil rights action
against the County of San Diego, seven individual San
Diego County Sheriff ’s Deputies, and a former public
defender, pursuant to 42 U.S.C. § 1983 and California
state law. Plaintiff alleges seven causes of action in his
Third Amended Complaint, including violations of his
Fourth and Fourteenth Amendment rights, wrongful
arrest, wrongful detention, false imprisonment, negligence, legal malpractice, and municipal liability. See
Doc. No. 60. Defendants move for summary judgment
as to all claims. See Doc. No. 143. Plaintiff filed an opposition to the motion, to which Defendants replied.
See Doc. Nos. 147, 148, 155. In addition, the Court
granted Plaintiff leave to file a sur-reply. See Doc. Nos.
157, 159. The Court took the matter under submission
on the briefs pursuant to Civil Local Rule 7.1.d.1. See
Doc. No. 156. For the reasons set forth below, the Court
GRANTS Defendants’ motion.

App. 11
BACKGROUND1
This action arises out of events involving Plaintiff ’s arrest and subsequent detention for a thirty-year
old crime he did not commit. In May 1985, an individual named Steven Lee Dishman was serving a seven
year sentence for burglary and theft of property when
he escaped from a prison work release program in Arkansas. Plaintiff James DeWolfe Soler and Steven Lee
Dishman are not the same person. Nevertheless, on
August 7, 2013, after seeing an internet notice describing Dishman’s physical characteristics and escape,
Plaintiff ’s neighbor contacted the Arkansas Department of Corrections (“ADOC”) to report that Dishman
was living in California under the name James DeWolfe Soler.
On September 25, 2013, Ray Hobbs, Director of the
ADOC, swore to an affidavit stating that Steven Lee
Dishman was living in Alpine, California under the
alias of James DeWolfe Soler. Hobbs presented the affidavit to an Arkansas judge, who in turn issued an Affidavit of Probable Cause to support the extradition of
“Steven Dishman, a/k/a James DeWolfe Soler” from
California to Arkansas. Def. Ex. B. The ADOC forwarded the certified affidavits to the Office of Arkansas

1

These facts are taken from Defendants’ separate statement, Plaintiff ’s response, and pertinent declarations and exhibits. The Court finds that the majority of material facts in this case
are not in dispute. Where a material fact is in dispute, it will be
so noted. Facts immaterial to the disposition of Defendants’ motion are not recited herein.

App. 12
Governor Mike Beebe, who issued a requisition for extradition to California Governor Brown.
On November 27, 2013, the Office of the Governor
of California issued a Governor’s Warrant of Rendition
commanding as follows:
WHEREAS, it has been represented to me by
the Governor of the State of Arkansas that
Steven Lee Dishman aka James De Wolfe
Soler stands convicted under the laws of that
state of Burglary and Theft of Property,
thereafter escaped from custody, fled from
the justice of the State of Arkansas, and is
now found to be in the State of California; and
WHEREAS, pursuant to the provisions of the
Constitution and the laws of the State of California and the State of Arkansas, the Governor of the State of Arkansas has demanded
of me that I shall cause the fugitive to be arrested and delivered to Director Ray Hobbs
and/or designated agent(s) authorized to
receive into custody and convey the fugitive
back to said state; and
WHEREAS, the representation and demand
is accompanied by the requisition, a copy of
the Judgment and Commitment, Warrant, and supporting papers certified by the
Governor of the State of Arkansas to be authentic, whereby the fugitive was convicted of
the crime.
THEREFORE, I, Edmund G. Brown Jr.,
Governor of California, acting through my
duly authorized Interstate Rendition Officer,

App. 13
command you to arrest and secure Steven
Lee Dishman aka James DeWolfe Soler,
wherever he may be found within this state,
and to deliver him into the custody of the designated agents; to be returned to the State of
Arkansas, there to be dealt with according to
law.
Def. Ex. C (bold in original).
On December 6, 2013, the California Governor’s
Office issued a Request to Locate and Serve, directed
to the Extraditions Division of the San Diego County
District Attorney’s Office, together with the Governor’s
Warrant and the Arkansas Governor’s Agent’s Appointment. The Request to Locate and Serve provided the
Alpine, California address of James DeWolfe Soler. According to an activity log maintained by a paralegal
employed with the Extraditions Division, on January
7, 2014, the paralegal spoke to Defendant Mark Milton, a San Diego Sheriff ’s Department detective assigned to the Court Services Bureau, regarding the
Governor’s Warrant. Milton indicated that he would
have his “field guys” attempt an arrest. Def. Ex. G. Milton testified during his deposition that he forwarded
the materials he received, along with booking information and a photograph of Plaintiff from a previous
arrest, to Defendant Sergeant Turvey in the El Cajon
Courthouse Field Division.
Turvey supervised Defendant Deputies Germain
and Medina, field deputies tasked with serving civil
process and warrants for the Sheriff ’s Department. On
January 13, 2014, Germain and Medina encountered

App. 14
Plaintiff at his home in Alpine, California. Plaintiff
provided the deputies with a California Driver’s License bearing the name James DeWolfe Soler, and the
address listed on the Request to Locate and Serve. Defendants took Plaintiff into custody pursuant to the
Governor’s Warrant. At the time of his arrest, Plaintiff
and his wife denied that he was Steven Lee Dishman,
and stated they suspected their neighbors had falsely
accused him. Germain and Medina transported Plaintiff to the Alpine Sheriff ’s Sub-Station, and subsequently to San Diego Central Jail.
The next morning, Plaintiff informed jail staff that
he was not Steven Lee Dishman. Defendant Sergeant
Banuelos proceeded with an investigation pursuant to
the Sheriff ’s Department Detention Services Bureau
Policy for instances where a warrant possibly names
the wrong person. In his report, Banuelos recommended that Plaintiff appear at an identity hearing in
addition to his extradition hearing. Less than forty-eight
hours after his arrest, Plaintiff appeared before a San
Diego Superior Court judge for his initial appearance.
Defendant Deputy Public Defender Tarantino served
as Plaintiff ’s appointed counsel. Plaintiff informed
Tarantino that he was not Steven Lee Dishman. Tarantino learned that no fingerprint comparison had
been done, and the court continued the hearing until
January 22, 2014 in order for the fingerprint comparison to be completed.
Plaintiff remained in custody after the hearing. A
print comparison was performed on Thursday, January
16, 2014. The examiner determined the prints did not

App. 15
match. The District Attorney’s Office conducted a confirmatory comparison on Tuesday, January 21, 2014.2
The prints did not match. The District Attorney’s Office
notified Defendant Smith, and Plaintiff was released
from custody that same day.
Based on these events, Plaintiff brings the following claims: (1) wrongful arrest in violation of the
Fourth Amendment against Defendants Germaine, Medina, Milton, Smith, and Turvey; (2) wrongful detention in violation of the Fourth and Fourteenth
Amendments against all Defendant Officers; (3) municipal liability under 42 U.S.C. § 1983 (“Monell claim”)
against Defendant County of San Diego; (4) wrongful
arrest, detention, and imprisonment in violation of
California law against Defendant San Diego County
and Defendant Officers; (5) false imprisonment against
Defendant San Diego County and Defendant Officers;
(6) negligence against Defendant Officers; and (7) professional malpractice against Defendant Tarantino.
DISCUSSION
Defendants move for summary judgment, disclaiming liability as a matter of law based on the facial
validity of the Governor’s Warrant and Defendant Officers’ reasonable reliance on the warrant to arrest
and detain Plaintiff. Alternatively, Defendants argue
that even if a constitutional violation occurred, the
2

Monday, January 20, 2014 was Martin Luther King Jr.
Day, a legal holiday observed by San Diego County Superior
Court and the County of San Diego.

App. 16
individual officers are entitled to qualified immunity,
and liability cannot be established against the County.
1. Legal Standard
“A party may move for summary judgment, identifying each claim or defense – or the part of each claim
or defense – on which summary judgment is sought.
The court shall grant summary judgment if the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). A fact is material if it could affect the outcome of the suit under applicable law. See Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248-49 (1986). A dispute about a material fact
is genuine if there is sufficient evidence for a reasonable jury to return a verdict for the non-moving party.
Id. at 248.
The party seeking summary judgment bears the
initial burden of establishing the basis of its motion
and of identifying the portions of the declarations,
pleadings, and discovery that demonstrate absence of
a genuine issue of material fact. Celotex Corp. v.
Catrett, 477 U.S. 317, 323 (1986). If the moving party
does not bear the burden of proof at trial, he may discharge his burden of showing no genuine issue of material fact remains by demonstrating that “there is an
absence of evidence to support the nonmoving party’s
case.” Id. at 325. The burden then shifts to the opposing party to provide admissible evidence beyond
the pleadings to show that summary judgment is not

App. 17
appropriate. Id. at 324. The party opposing summary
judgment cannot “rest upon the mere allegations or denials of [its] pleading but must instead produce evidence that sets forth specific facts showing that there
is a genuine issue for trial.” Estate of Tucker v. Interscope Records, 515 F.3d 1019, 1030 (9th Cir.), cert. denied, 555 U.S. 827 (2008) (internal quotation marks
omitted).
2. Evidentiary Objections
a) Plaintiff ’s Objections
Plaintiff objects to Defendants’ Exhibits D, K, M,
Q, W, and X, as inadmissible hearsay. Defense Exhibit
D, the District Attorney’s Office Activity Log, qualifies
as a record of regularly conducted activity and exception to the prohibition on hearsay under Federal Rule
of Evidence 803(6). Defense Exhibit K, an email string
between Defendants Turvey, Germain, and Milton, is
also admissible under Rule 803(6) as it “memorialize[s]
the official acts” of the deputies while discharging their
professional duties. Neumeyer v. Wawanesa Gen. Ins.
Co., No. 14cv181-MMA (RBB), 2015 U.S. Dist. LEXIS
59024 at *13 (S.D. Cal. Apr. 24, 2015). With respect
to Defense Exhibits M (an arrest report) and Q (a
crime/incident report), the exhibits are admissible as
public records. “A police report, including the police officer’s statements and observations, are admissible in
civil cases under the public records hearsay exception.”
Id. at *64 (citing Fed. R. Evid. 803(8)). Accordingly, the
Court OVERRULES Plaintiff ’s objections to Defense

App. 18
Exhibits D, K, M, and Q. The Court did not rely upon
Defense Exhibits W and X, and finds Plaintiff ’s objections to these exhibits moot.
b) Defendants’ Objections
Defendants object to various portions of multiple
declarations submitted by Plaintiff in support of his
opposition to Defendants’ motion, primarily on relevance and hearsay grounds. Defendants also object to
approximately 26 of Plaintiff ’s proffered exhibits on
the general grounds that the exhibits are irrelevant,
unfairly prejudicial, hearsay, lack foundation, lack
personal knowledge, and lack proper authentication.
The Court will “not scrutinize each objection and give
a full analysis of identical objections raised as to each
fact.” Neumeyer, 2015 U.S. Dist. LEXIS 59024 at *12*13 (citing Capitol Records, LLC v. BlueBeat, Inc., 765
F. Supp. 2d 1198, 1200 n.1 (C.D. Cal. 2010) (noting that
on motions with voluminous objections “it is often unnecessary and impractical for a court to methodically
scrutinize each objection and give a full analysis of
each argument raised.”). However, the Court has taken
each of Defendants’ objections into consideration. To
the extent the Court relies upon contested evidence to
resolve the instant motion, the Court OVERRULES
Defendants’ objections.
3. Extradition Laws
The Extradition Clause of the United States Constitution provides:

App. 19
[A] person charged in any State with Treason,
Felony or other Crime, who shall flee from
Justice, and be found in another State, shall
on Demand of the executive Authority of the
State from which he fled, be delivered up, to
be removed to the State having Jurisdiction of
the Crime.
U.S. Const. Art. IV, section 2, cl. 2. “[T]he commands of
the Extradition Clause are mandatory, and afford no
discretion to the executive officers or courts of the asylum State.” Puerto Rico v. Branstad, 483 U.S. 219, 227
(1987). The power and duty of determining whether
the constitutional and statutory requirements to warrant extradition are met rests on the Governor of the
asylum state. Michigan v. Doran, 439 U.S. 282, 289
(1978). “A governor’s grant of extradition is prima facie
evidence that the constitutional and statutory requirements have been met.” Id. at 289. The Extradition Act
is the applicable federal implementing statute:
Whenever the executive authority of any
State or Territory demands any person as a
fugitive from justice, of the executive authority of any State, District or Territory to which
such person has fled, and produces a copy of
an indictment found or an affidavit made before a magistrate of any State or Territory,
charging the person demanded with having
committed treason, felony, or other crime, certified as authentic by the governor or chief
magistrate of the State or Territory from
whence the person so charged has fled, the
executive authority of the State, District or
Territory to which such person has fled shall

App. 20
cause him to be arrested and secured, and
notify the executive authority making such
demand, or the agent of such authority appointed to receive the fugitive, and shall cause
the fugitive to be delivered to such agent
when he shall appear.
18 U.S.C. § 3182. “By the express terms of federal law,
therefore, the asylum State is bound to deliver up to
the demanding State’s agent a fugitive against whom
a properly certified indictment or affidavit charging a
crime is lodged.” California v. Superior Court of Cal.,
482 U.S. 400, 407 (1987).
“A claim under section 1983 is available to redress
violations of federal statutory and constitutional law.”
Ghana v. Pearce, 159 F.3d 1206, 1208 (9th Cir. 1998).
Accordingly, violation of the Extradition Act by state or
local law enforcement officers states a cause of action
under section 1983. Draper v. Coombs, 792 F.2d 915,
920 (9th Cir. 1986). In addition, California has adopted
its own version of the Uniform Criminal Extradition
Act (“UCEA”), Cal. Pen. Code §§ 1548-1558, which “establishes procedures for the interstate transfer of persons against whom criminal charges are outstanding.”
Cuyler v. Adams, 449 U.S. 433, 435 n.1 (1981). A violation of California’s extradition laws “can serve as the
basis of a section 1983 action where the violation of
state law causes the deprivation of rights protected by
the Constitution and statutes of the United States.”
Draper, 792 F.2d at 921 (internal quotations omitted).

App. 21
4. Analysis
a) Fourth Amendment Claim
Plaintiff alleges that his arrest and detention violated his Fourth Amendment right to be free from unreasonable seizures. Defendants move for summary
judgment on the grounds that Plaintiff was arrested
pursuant to a facially valid warrant, which provided
the officers with probable cause to arrest and detain
Plaintiff.
The Fourth Amendment provides that “no Warrants shall issue, but upon probable cause . . . and particularly describing . . . the persons or things to be
seized.” U.S. Const. Amend. IV. “The Fourth Amendment prohibits government officials from detaining a
person in the absence of probable cause. That can happen when the police hold someone without any reason
before the formal onset of a criminal proceeding. But it
also can occur when legal process itself goes wrong”
and “a person is confined without constitutionally adequate justification.” Manuel v. City of Joliet, 580 U.S.
___, 137 S. Ct. 911, 918 (2017) (internal citations omitted).
Plaintiff argues that his arrest and detention were
unreasonable based on the lack of probable cause to
support the Governor’s Warrant. In the context of interstate extradition proceedings, this is a non sequitur.
The probable cause determination lies solely with
the demanding state. See Michigan v. Doran, supra,
439 U.S. at 290, 99 S. Ct. 530 (“When a neutral judicial
officer of the demanding state has determined that

App. 22
probable cause exists, the courts of the asylum state
are without power to review the determination.”). The
asylum state has no power to question the probable
cause determination of the demanding state. See id. at
282, 99 S.Ct. 530; see also In re Golden, 65 Cal. App. 3d
789, 796 (1977) (holding that “constitutional and statutory provisions relating to extradition bar inquiry by
the asylum state into the merits of the charge against
an alleged fugitive”); see Cal. Pen. Code § 1553.2 (“The
guilt or innocence of the accused as to the crime with
which he is charged may not be inquired into by the
Governor or in any proceeding after the demand for extradition . . . ”). “By postponing inquiry into the existence of probable cause until a fugitive is lawfully
returned to the demanding state, a necessary accommodation is achieved between an individual’s interest
in protection against unfounded invasions of liberty
and privacy and the state’s interest in upholding the
constitutional and statutory principles governing extradition.” Golden, 65 Cal. App. 3d at 796 (internal citations omitted).
Moreover, once probable cause to arrest has been
established, “a law enforcement officer is not required
by the Constitution to investigate independently every
claim of innocence.” Broam v. Bogan, 320 F.3d 1023,
1032 (9th Cir. 2003) (quotation omitted). Officers are
entitled to reasonably rely on an issuing authority’s determination of probable cause, and will be shielded
from any liability relating to the arrest if they relied
on the determination in good faith. See United States
v. Leon, 468 U.S. 897, 922-23 (1984). Here, officials in

App. 23
the State of Arkansas determined, albeit incorrectly,
that probable cause existed to believe that the person
living in Alpine, California under the name “James DeWolfe Soler” was a fugitive from their state named
“Steven Lee Dishman.” The Office of the Governor of
Arkansas compiled affidavits and directed those documents to the Governor of California who, based on the
information before him, determined that Arkansas
met the statutory requirements to warrant the extradition of the man living under the name “James DeWolfe Soler” in Alpine, California.
Plaintiff asserts that the “most obvious basis” for
Defendant Officers’ liability is that they arrested
Plaintiff “without probable cause to believe that Soler
was the person wanted on the warrant.” Pl. Opp. at 41.
This is simply not the case. Defendant Officers confirmed Plaintiff ’s identity as James DeWolfe Soler, and
arrested the exact man that an Arkansas judge and
two state governors previously deemed subject to extradition. The officers were entitled to rely upon – and
in fact, without discretion to disregard – the executive
and judicial determination of probable cause that Soler
was an alias being used by Dishman. See Baker v.
McCollan, 443 U.S. 137, 145-46 (1979) (“Given the requirements that arrest be made only on probable cause
and that one detained be accorded a speedy trial, we
do not think a sheriff executing an arrest warrant is
required by the Constitution to investigate independently every claim of innocence, whether the claim
is based on mistaken identity or a defense such as lack
of requisite intent.”); see also Cal. Pen. Code § 848 (“An

App. 24
officer making an arrest, in obedience to a warrant,
must proceed with the person arrested as commanded
by the warrant, or as provided by law.”).
Plaintiff also disputes the facial validity of the
warrant, and contends that the officers unreasonably
relied upon the warrant to arrest and detain Plaintiff.
A Governor’s Warrant issued pursuant to Section
1549.2 is presumed valid. See Cal. Pen. Code § 1550.1
(“A warrant issued in accordance with the provisions
of Section 1549.2 shall be presumed to be valid . . . ”).
Plaintiff takes issue with the inclusion of the alias on
the face of the warrant, but does not dispute that
“James DeWolfe Soler” is his true name. In general, a
warrant that correctly names the person to be arrested
is constitutionally sufficient. Rivera v. Cty. of L.A., 745
F.3d 384, 388 (9th Cir. 2014). The arrest of a person
named in a valid warrant, even if it turns out to be
the wrong individual, will not violate the Fourth
Amendment unless the arresting officers acted unreasonably. Id. at 389; see Baker, 443 U.S. at 145 (an arrest
pursuant to a valid warrant does not violate the Constitution, regardless of the outcome of the criminal
prosecution).
Plaintiff further contends that the Governor’s
Warrant did not otherwise satisfy the Fourth Amendment’s particularity requirement. Plaintiff points out
that the warrant did not include a physical description
of either himself or Steven Lee Dishman, which he ascribes to be a key flaw based on the discrepancies between Plaintiff and Dishman’s appearances. The Court
once again notes that the Governor’s Warrant included

App. 25
Plaintiff ’s correct legal name, which is sufficient to satisfy the Fourth Amendment’s particularity requirement. See West v. Cabell, 153 U.S. 78, 86 (1894) (“The
principle of the common law, by which warrants of arrest, in cases criminal or civil, must specifically name
or describe the person to be arrested, has been affirmed
in the American constitutions.”) (emphasis added).
And while ordinarily under California law an arrest
warrant must describe the wanted individual, see Cal.
Pen. Code § 850(b), Governor’s Warrants are excepted
from these requirements. Id. § 1549.2. The Governor of
California’s grant of extradition is prima facie evidence
that sufficient documentation exists to establish that a
fugitive from justice is found in California. See Cal.
Pen. Code §§ 1549.2; 1550.1. As such, the ordinary prerequisites for arrest warrants set forth in Section 850
are unnecessary. In this case, the Governor’s Warrant
properly incorporated the information typically included in a Governor’s Warrant, including the recital
of the documents received and reviewed by the Office
of the Governor leading to the determination that extradition was warranted. See id. § 1548.2. No further
particularity was required by the Constitution or California law.
The Court finds that Plaintiff was arrested and detained pursuant to a facially valid Governor’s Warrant
of Rendition. An arrest and detention pursuant to a facially valid warrant does not establish a Fourth
Amendment violation. Baker, 443 U.S. at 144; Erdman
v. Cochise County, 926 F.2d 877, 882 (9th Cir. 1991);
see also Juriss v. McGowan, 957 F.2d 345, 350 (7th

App. 26
Cir.1992) (“Generally, a person arrested pursuant to a
facially valid warrant cannot prevail in a § 1983 suit
for false arrest; this is so even if the arrest warrant is
later determined to have an inadequate factual foundation.”). Accordingly, Defendant Officers are entitled
to summary judgment in their favor on Plaintiff ’s
Fourth Amendment claim.
b) Fourteenth Amendment Claim
California denies bail to extradition subjects by
statute. People v. Superior Court (Ruiz), 187 Cal. App. 3d
686, 689 (1986) (citing Cal. Pen. Code § 1550.1). Therefore, as a result of his arrest on the Governor’s Warrant, Plaintiff was remanded into custody and detained
for eight days. Plaintiff claims that this prolonged
detention violated his Fourteenth Amendment due
process rights. Defendant Officers argue that no due
process violation occurred, based on Plaintiff ’s appearance before a judge within 48 hours of his arrest and
ultimate release within the applicable statutory time
period.
The Fourteenth Amendment does not protect
against all deprivations of liberty, but rather, deprivations of liberty without due process of law. The Ninth
Circuit has explained that “incarceration based on
mistaken identity might violate the Due Process
Clause in some circumstances.” Rivera, 745 F.3d at
390. As relevant here, officers violate the Fourteenth
Amendment if they wrongly detain a person where
“the circumstances indicated to [them] that further

App. 27
investigation was warranted.” Garcia v. County of Riverside, 817 F.3d 635 (9th Cir. 2016). Incarceration
based on mistaken identity violates the Due Process
Clause if either: “(1) the circumstances indicated to the
defendants that further investigation was warranted,
or (2) the defendants denied the plaintiff access to the
courts for an extended period of time.” Rivera, 745 F.3d
at 391.
Once an individual is detained, “a jailor need not
independently investigate all uncorroborated claims of
innocence if the suspect will soon have the opportunity
to assert his claims in front of a judge.” Id. at 391. Yet
in this case, Defendant Banuelos interviewed Plaintiff
the morning after his arrest, determined that further
investigation was warranted into Plaintiff ’s claim of
mistaken identity, and recommended that an identity
hearing be scheduled. A fingerprint comparison was
promptly undertaken. The five day delay between the
initial comparison and the required confirmatory comparison, resulted from unfortunate timing. The initial
comparison was done on a Thursday before a long holiday weekend. The confirmatory comparison was done
on the following Tuesday, when business resumed.
Plaintiff was released from custody that day. Further
investigation into Plaintiff ’s identity was warranted in
this case, and that is precisely what occurred.
Nor was Plaintiff denied access to the courts. California has adopted the UCEA, which sets forth the
particular procedural protections afforded to individuals arrested and detained pursuant to a warrant of
rendition. The statute provides, in pertinent part:

App. 28
No person arrested upon such warrant shall
be delivered over to the agent of the executive authority demanding him unless he is
first taken forthwith before a magistrate, who
shall inform him of the demand made for his
surrender, and of the crime with which he is
charged, and that he has the right to demand
and procure counsel. . . . A warrant issued in
accordance with the provisions of Section
1549.2 shall be presumed to be valid, and unless a court finds that the person in custody is
not the same person named in the warrant, or
that the person is not a fugitive from justice,
or otherwise subject to extradition under Section 1549.1 . . . the person named in the warrant shall be held in custody at all times, and
shall not be eligible for release on bail.
Cal. Penal Code § 1550.1. California law further provides that a “defendant shall in all cases be taken before the magistrate without unnecessary delay, and, in
any event, within 48 hours after his or her arrest, excluding Sundays and holidays.” Id. § 825.
Because Plaintiff was arrested pursuant to a facially valid Governor’s Warrant, as discussed above, he
was legally detained. However, an appearance before a
judge is a “significant procedural protection” to which
Plaintiff was entitled. Rivera, 745 F.3d at 391. It is undisputed that Plaintiff appeared before a judge within
forty-eight hours of his arrest in compliance with constitutional and statutory requirements.
California’s version of the UCEA provides for further access to the courts, such that “[i]f the accused or

App. 29
his counsel desires to test the legality of the arrest, the
magistrate shall remand the accused to custody, and
fix a reasonable time to be allowed him within which
to apply for a writ of habeas corpus . . . ” Cal. Pen. Code
§ 1550.1. Defendant Tarantino, Plaintiff ’s assigned
counsel, requested a continuance to allow time for a
fingerprint comparison. Tarantino indicated to the
court that in the event he was not satisfied with the
fingerprint results, he would apply for a writ on behalf
of his client. The judge set a further status hearing, reserving Plaintiff ’s right to pursue a writ of habeas corpus if necessary. Plaintiff was released from custody
upon completion of the fingerprint comparison. As
such, no further hearing was held and no writ was necessary.
In sum, Plaintiff ’s wrongful eight-day detention,
while unfortunate, did not violate the Due Process
Clause of the Fourteenth Amendment. Baker, 443 U.S.
at 146 (“Section 1983 imposes liability for violations of
rights protected by the Constitution, not for violations
of duties of care arising out of tort law.”).
c) Qualified Immunity
Even if Plaintiff had not been arrested and detained pursuant to a facially valid warrant, Defendant
Officers are immune from liability. “Qualified immunity balances two important interests – the need to hold
public officials accountable when they exercise power
irresponsibly and the need to shield officials from harassment, distraction, and liability when they perform

App. 30
their duties reasonably.” Pearson v. Callahan, 555 U.S.
223, 231 (2009). An officer is entitled to qualified immunity unless (1) facts viewed in the light most favorable to the injured party show that the officer violated
a constitutional right, and (2) the right was clearly
established at the time of the alleged misconduct.
Saucier v. Katz, 533 U.S. 194, 201 (2001), modified by
Pearson, 555 U.S. at 233.
“It is well established that, in an action for unlawful arrest pursuant to a facially valid warrant, a police
officer is entitled to qualified immunity unless no officer of reasonable competence would have requested
the warrant.” Case v. Kitsap Cty. Sheriff ’s Dep’t, 249
F.3d 921, 926 (9th Cir. 2001) (internal quotations omitted). Reasonable officers in Defendants’ position would
not have clearly known that their conduct was unlawful under the circumstances. See Hunter v. Bryant, 502
U.S. 224, 229 (1991) (holding that “qualified immunity
standard gives ample room for mistaken judgments by
protecting all but the plainly incompetent or those who
knowingly violate the law”). Liability only attaches if a
reasonably well-trained officer in that position would
have known that the affidavit supporting the warrant
failed to establish probable cause. Forster v. County of
Santa Barbara, 896 F.2d 1146, 1147-48 (9th Cir.1990).
Here, no officer could have known whether the Governor’s Warrant was supported by probable cause. In the
context of extradition proceedings, the arresting officers in the asylum state are constitutionally and statutorily prohibited from questioning the demanding
state’s probable cause finding. Baker, 443 U.S. at 145146. Thus, Defendant Officers were not in a position to

App. 31
determine whether there was an adequate factual basis for the Governor’s Warrant, nor were they permitted or otherwise obligated to inquire.
As set forth above, Plaintiff ’s arrest and detention
do not give rise to a constitutional violation. Even if
Plaintiff suffered a violation of his Fourth or Fourteenth Amendment rights, Defendant Officers are entitled to qualified immunity.
d) Municipal Liability Claim
Plaintiff brings a claim against the County pursuant to Monell v. Dep’t of Soc. Servs. of City of New York,
436 U.S. 658 (1978). Plaintiff alleges that it is the practice of the San Diego County Sheriff ’s Department to
undertake by “snail mail” the exchange of documents
and information with other agencies, and only after effectuating an arrest, resulting in wrongful arrests and
prolonged detentions. Because the individual officers
did not violate Plaintiff ’s constitutional rights, Plaintiff ’s claim for municipal liability fails as a matter of
law. See Quintanilla v. City of Downey, 84 F.3d 353, 355
(9th Cir. 1996) (“[A] public entity is not liable for § 1983
damages under a policy that can cause constitutional
deprivations, when . . . an individual officer, acting pursuant to the policy, inflicted no constitutional harm to
the plaintiff.”); see also Forrester v. City of San Diego,
25 F.3d 804, 808 (9th Cir. 1994) (holding that “a finding
that the arrests did not involve the use of unreasonable force” renders “moot the question of whether
the city’s policy authorized the use of constitutionally

App. 32
excessive force”) (citing City of Los Angeles v. Heller,
475 U.S. 796, 799 (1986)). Even if a constitutional violation had occurred, Plaintiff has not demonstrated
that “his deprivation resulted from an official policy or
custom established by a municipal policymaker possessed with final authority to establish that policy.”
Erdman, 926 F.2d at 882. The County is entitled to
summary judgment in its favor as to Plaintiff ’s municipal liability claim.
The Court notes that Plaintiff seeks leave to discard the basis for his municipal liability claim as set
forth in the Third Amended Complaint, in order to allege new theories of liability against the County. However, amendment would be futile based on the Court’s
determination that no underlying constitutional violation occurred. In addition, although the Federal Rules
favor a liberal approach to amendments, amendments
may not be used as a device to prevent the efficient resolution of a case. Where, as here, a party proposes
amendments while a summary judgment motion is
pending, the Court must look closely to determine
whether the proposed amendment is a tactic to prevent
termination of the case on summary judgment. Schlacter-Jones v. General Telephone of California, 936 F.2d
435, 443 (9th Cir. 1990). Defendants seek summary
judgment as to all of Plaintiff ’s current claims. If
Plaintiff is allowed to amend his complaint now, he will
have effectively evaded the termination of his lawsuit
on summary judgment. As such, the Court denies
Plaintiff ’s request for leave to amend his municipal liability claim.

App. 33
e) State Law Claims
Plaintiff also brings various state law claims against
Defendants, including wrongful arrest, false imprisonment, negligence, and professional malpractice. Plaintiff ’s state law claims are before the Court based on
supplemental jurisdiction. See 28 U.S.C. § 1367(a).
Based on the foregoing, Plaintiff ’s federal claims are
subject to dismissal. The Court declines to exercise supplemental jurisdiction over Plaintiff ’s state law claims
based on the dismissal of the claims over which the
Court has original jurisdiction. Id. § 1367(c)(3) (“The
district courts may decline to exercise supplemental
jurisdiction over a claim . . . if the district court has
dismissed all claims over which it has original jurisdiction.”); see also, Acri v. Varian Associates, Inc., 114 F.3d
999, 1000-1001 (9th Cir. 1997) (noting that “ ‘in the
usual case in which all federal law claims are eliminated before trial, the balance of factors . . . will point
toward declining to exercise jurisdiction over the remaining state law claims.’ ”) (quoting Carnegie-Mellon
University. v. Cohill, 484 U.S. 343, 350, n. 7 (1988)). Accordingly, the Court dismisses Plaintiff ’s state law
claims without prejudice.
CONCLUSION
For the reasons set forth above, the Court
GRANTS Defendants’ motion for summary judgment
and dismisses Plaintiff ’s federal civil rights claims
with prejudice. The Court declines to exercise supplemental jurisdiction over Plaintiff ’s remaining state

App. 34
law claims and dismisses those claims without prejudice. The Clerk of Court is instructed to enter judgment accordingly and close the case.
IT IS SO ORDERED.
DATE: August 11, 2017
/s/ Michael M. Anello
HON. MICHAEL M. ANELLO
United States District Judge

App. 35
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JAMES SOLER,

No. 17-56270

D.C. No.
3:14-cv-02470-MMA-RBB
v.
Southern District of
COUNTY OF SAN DIEGO; California, San Diego
et al.,
ORDER
Plaintiff-Appellant,

Defendants-Appellees. (Filed Jun. 4, 2019)
Before: GOULD, NGUYEN, and OWENS, Circuit
Judges.
The panel has voted to deny Appellees Ray Hobbs
and Lisa Wilkins’ petition for rehearing en banc (Dkt.
No. 57). The full court has been advised of the petition
for rehearing en banc, and no judge of the court has
requested a vote on it.
Appellees Ray Hobbs and Lisa Wilkins’ petition for
rehearing en banc is DENIED.
In addition, the panel has voted to deny Appellees
Ernesto Banuelos and County of San Diego’s petition
for panel rehearing and petition for rehearing en banc
(Dkt. No. 58). The full court has been advised of the
petition for rehearing en banc, and no judge of the
court has requested a vote on it.

App. 36
Appellees Ernesto Banuelos and County of San Diego’s petition for panel rehearing and petition for rehearing en banc are DENIED.

